In the
Supreme Court of the United States

Jorel Shophar,
Petitioner,
v.
Johnson County Kansas
Judge Christina Gyllenborg
Judge Kathleen Sloan
Kansas Department of Children and Families
KVC Health
Respondents.

CERTIFICATE OF COMPLIANCE
As required by the Supreme Court Rule 33.1 (h), I certify that the petition for Writ of
Certiorari contains 8,633 words, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1 (d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 29, 2021

UorellShophar
1900 E. Golf Rd., Suite 950
Schaumburg, IL 60173
(773) 563-9851
Shophar@UnitedStatesChurch.us

